              Review of the Exempt Organizations Function
                Process for Reviewing Alleged Political
                 Campaign Intervention by Tax Exempt
                             Organizations

                                  February 2005

                       Reference Number: 2005-10-035




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  February 17, 2005


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION



      FROM:                            Pamela J. Gardiner
                                       Deputy Inspector General for Audit

      SUBJECT:                         Final Audit Report - Review of the Exempt Organizations
                                       Function Process for Reviewing Alleged Political Campaign
                                       Intervention by Tax Exempt Organizations (Audit # 200510008)


      This report presents the results of our review of the Exempt Organizations (EO) function
      process for reviewing alleged political campaign intervention by tax exempt
      organizations. The overall objective of this review was to evaluate the Tax Exempt
      and Government Entities (TE/GE) Division’s recently established process for
      reviewing information alleging political campaign intervention by Internal Revenue Code
      (I.R.C.) § 501(c)(3)1 organizations and for initiating any associated examinations of
      these organizations. Specifically, we determined the process established by TE/GE
      Division management to review referrals of potential political campaign intervention and
      assessed whether referrals were processed in accordance with established procedures.
      In November 2004, the Treasury Inspector General for Tax Administration (TIGTA)
      received separate requests from the Commissioner of the Internal Revenue Service
      (IRS) and the Commissioner, TE/GE Division, to evaluate the new process used by the
      IRS to review allegations of potential political activities by tax exempt organizations.
      There had been several media reports of allegations that the TE/GE Division was
      examining this type of activity just before the 2004 Presidential election for politically
      motivated reasons. We limited our audit to a review of the process followed by the EO
      function for reviewing these allegations and did not determine whether the activities by
      the tax exempt organizations involved potentially prohibited political activity. We were
      alert for any indications that inappropriate actions, such as political influence, may have
      been taken with regard to the handling of these referrals. Based on the extent of our


      1
          I.R.C. § 501(c)(3) (2004).
                                                            2

audit work, we did not identify any indications that the EO function inappropriately
handled the information items we reviewed. Furthermore, we did not make any referrals
to the TIGTA Office of Investigations during this audit.
In summary, the TE/GE Division took several actions in 2004 to address potential
political campaign intervention by tax exempt organizations. Specifically, TE/GE
Division management provided education and outreach activities to
§ 501(c)(3) organizations on their responsibilities related to political activities. In
addition, the EO function established a new expedited process to review allegations
of potential political intervention by tax exempt organizations because EO function
management anticipated an increase in these types of allegations during the
2004 election year. In June 2004, EO function management initiated a Political
Intervention Project (PIP) at the request of the Commissioner, TE/GE Division. The
main goal of the PIP was to establish a “fast track” process to respond quickly to
referrals of potential political intervention during the 2004 election year and prevent
recurring violations by the same organizations.
We reviewed samples of information items processed under the PIP during the period
July 30, 2004, through November 22, 2004, to determine whether the EO function
processed the allegations in accordance with established procedures.2 Based on our
samples, we determined the EO Referral Committee followed a consistent process
when reviewing the information items, regardless of the source of the allegation or the
potential political activity. Specifically, the sampled information items were reviewed by
a three-person EO Referral Committee of experienced EO function technical
employees, as required. In addition, the EO Referral Committee’s decision of whether
an allegation warranted an examination was documented in each case file. EO function
management informed us the EO Referral Committee evaluated the information items
based on the “reasonable belief standard.”3 Further, we analyzed the EO Referral
Committee’s decisions and did not identify any cases in which the same criteria were
used to select one information item for examination and to decline a similar item for
examination.
However, EO function management experienced delays in expediting the classification
and examination processes. Specifically, the EO Classification Unit did not always
ensure information items were classified and directed to a field examination group
timely, contact letters were not always issued to taxpayers within the expedited period,

2
  We randomly selected 40 of the 80 information items for which the EO Referral Committee determined an
examination was warranted, randomly selected 20 of the 41 items for which an examination was not warranted, and
selected all 10 of the information items that were classified and determined to be inaccurately categorized as
potential political activity, for a total of 70 cases. For the 20 cases, the EO Referral Committee identified several
reasons for not selecting the items for examination, including the alleged activity was not prohibited political
activity; the referral did not contain a specific, supported allegation of political activity; and the organization was not
a § 501(c)(3) organization. For the 10 cases that were inaccurately categorized, the EO Referral Committee
determined the allegations did not always contain specific, supported allegations of political activity or the
organization was not a § 501(c)(3) organization.
3
  For “reasonable belief” to be met, the Committee must determine an information item demonstrates that a violation
of the tax laws may have occurred or it appears likely that an examination will lead to the discovery of a violation.
                                             3

and notices of tax inquiry for issuance to churches were not reviewed and approved
within the 15 workday expedited period.
EO function management’s ability to effectively accelerate case initiations for potential
political intervention allegations was affected by a lack of clear guidance, inadequate
resources, and the late initiation of the PIP with less than 5 months remaining before the
2004 elections. As a result, the first contact letter sent to an organization as part of the
PIP was not issued until September 21, 2004, 6 weeks before the scheduled elections.
Although the IRS’ ability to contact tax exempt organizations as part of the PIP is not
limited by the timing of the Presidential election, we believe contacting organizations so
close to the election and the late publicity about this project contributed to the
allegations of improper motivation on the part of the IRS.
During our fieldwork, EO function management decided to discontinue the “fast track”
processing of allegations of potential political intervention by § 501(c)(3) organizations.
This decision was based on completion of the 2004 elections and was effective for all
information items received after November 30, 2004.
We recommended the Director, EO, formalize the draft guidelines that detail how
allegations of potential noncompliance with the tax laws by tax exempt organizations
should be classified. In addition, the Director, EO, should establish realistic time
standards for when information items should be classified and forwarded to an
examination group, if warranted, for both election and nonelection years. Additionally,
the Director, EO, should ensure any future expedited review process is initiated early
enough in an election year to ensure classification and examination actions are
completed timely and consistently. Further, to increase public awareness, we
recommended the Commissioner, TE/GE Division, should issue a press release in
future election years if the IRS plans to implement an expedited process to review
allegations of potential political intervention.
Management’s Response: The IRS agreed with our recommendations and indicated it
is evaluating the prohibited political activity program as it operated during the last
election cycle. Based on this evaluation, the IRS expects to make a number of
decisions on changes to the program for the next election cycle. TE/GE Division
management has drafted and will make effective procedures that specify how
allegations of potential noncompliance by tax exempt organizations should be classified.
In addition, procedures for future election years and nonelection years will provide
realistic time periods for processing information items alleging potential political
intervention. TE/GE Division management has drafted and the Director, EO
Examinations, is considering procedures for future election years that will ensure the
process is initiated early enough to allow classification and examination actions to be
completed timely and consistently. Finally, the Commissioner, TE/GE Division, has
requested the Director, Communications and Liaison, TE/GE Division, to prepare a
press release in future election years advising the exempt organizations community that
allegations of potential noncompliance with the tax laws relating to political activity will
be processed on an expedited basis. Management’s complete response to the draft
report is included as Appendix IV.
                                          4

Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
       Review of the Exempt Organizations Function Process for Reviewing Alleged
              Political Campaign Intervention by Tax Exempt Organizations




                                                  Table of Contents


Background ............................................................................................... Page 1
The Tax Exempt and Government Entities Division Took
Several Actions in 2004 to Address Allegations of Potential
Political Campaign Intervention by Tax Exempt Organizations ................. Page 3
Allegations of Potential Political Campaign Intervention Were
Handled Consistently but Were Not Always Processed Timely................. Page 8
         Recommendation 1: .......................................................................Page 14
         Recommendations 2 through 5:.....................................................Page 15

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 17
Appendix II – Major Contributors to This Report ....................................... Page 19
Appendix III – Report Distribution List ....................................................... Page 20
Appendix IV – Management’s Response to the Draft Report .................... Page 21
      Review of the Exempt Organizations Function Process for Reviewing Alleged
             Political Campaign Intervention by Tax Exempt Organizations

                                Under the Internal Revenue Code (I.R.C.), § 501(c)(3)1
Background
                                organizations are exempt from Federal income tax.
                                Charities, educational institutions, and religious
                                organizations, including churches, are among those that are
                                covered under this Code section. To qualify for and
                                maintain tax exempt status under I.R.C. § 501(c)(3), an
                                organization must be organized and operated exclusively for
                                its tax exempt purpose.
                                While many charities speak out on public issues as an
                                integral part of carrying on their tax exempt function, the
                                I.R.C. prohibits § 501(c)(3) organizations from the
                                following types of political activities:
                                       •    Directly or indirectly participating in, or intervening
                                            in, any political campaign on behalf of (or in
                                            opposition to) any candidate for elective public
                                            office.
                                       •    Making contributions to political campaign funds.
                                       •    Making public statements (verbal or written) in
                                            favor of or in opposition to any candidate for public
                                            office.
                                       •    Engaging in activities that may be beneficial for or
                                            detrimental to any particular candidate. These
                                            activities may constitute intervention, even if they
                                            do not expressly call for the election or defeat of a
                                            particular candidate, if the activity contains
                                            reasonably overt communication that the
                                            organization supports or opposes a particular
                                            candidate.
                                Violation of this I.R.C. prohibition may result in denial or
                                revocation of tax exempt status for the § 501(c)(3)
                                organization and the imposition of certain excise taxes on
                                the amount of money spent on the prohibited activity.
                                The Exempt Organizations (EO) function of the Tax
                                Exempt and Government Entities (TE/GE) Division has
                                responsibility for ensuring charitable or other tax exempt
                                organizations are in compliance with the I.R.C. Allegations
                                of potential noncompliance with the I.R.C., including

                                1
                                    I.R.C. § 501(c)(3) (2004).
                                                                                            Page 1
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                          allegations of potential political activity by § 501(c)(3)
                          organizations, are reviewed by the EO function. The EO
                          function may conduct an examination to determine if the
                          political activity is a violation of the law and if enforcement
                          action is warranted. EO function personnel select an
                          organization for examination based on information
                          contained on the tax return filed with the Internal Revenue
                          Service (IRS). However, the IRS also has authority to
                          examine a reporting period in which the tax return has not
                          been filed and is not yet due.
                          In November 2004, the Treasury Inspector General for Tax
                          Administration (TIGTA) received separate requests from
                          the Commissioner of the IRS and the Commissioner, TE/GE
                          Division, to evaluate the new process used by the IRS to
                          review allegations of potential political activities by tax
                          exempt organizations. There had been several media reports
                          of allegations that the TE/GE Division was examining this
                          type of activity just before the 2004 Presidential election for
                          politically motivated reasons. Because the IRS (not the
                          TIGTA) has the authority to administer the internal revenue
                          laws,2 which includes determining whether tax exempt
                          organizations are in compliance with those laws, we limited
                          our audit to a review of the process followed by the EO
                          function for reviewing these allegations and did not
                          determine whether the activities by the tax exempt
                          organizations involved potentially prohibited political
                          activity. We were alert for any indications that
                          inappropriate actions, such as political influence, may have
                          been taken with regard to the handling of these referrals.
                          Any inappropriate actions, including political influence,
                          would have been referred to the TIGTA Office of
                          Investigations for review.
                          This review was performed at the EO function National
                          Headquarters in Washington, D.C., and the EO
                          Examinations office in Dallas, Texas, during the period
                          November 2004 through January 2005. The audit was
                          conducted in accordance with Government Auditing
                          Standards. Detailed information on our audit objective,



                          2
                              I.R.C. § 7803(a) (2004).
                                                                                  Page 2
       Review of the Exempt Organizations Function Process for Reviewing Alleged
              Political Campaign Intervention by Tax Exempt Organizations

                                   scope, and methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   Based on our discussions with TE/GE Division
The Tax Exempt and
                                   management and review of applicable documentation,
Government Entities Division
                                   we determined TE/GE Division management took several
Took Several Actions in 2004 to
                                   actions during 2004 to address potential political campaign
Address Allegations of Potential
                                   intervention by tax exempt organizations. Specifically,
Political Campaign Intervention
                                   TE/GE Division management provided education and
by Tax Exempt Organizations
                                   outreach activities to I.R.C. § 501(c)(3) organizations on
                                   their responsibilities related to political activities. In
                                   addition, the EO function established a new process to
                                   review allegations of potential political intervention by tax
                                   exempt organizations on an expedited basis to respond
                                   quickly to these allegations and prevent recurring violations.
                                   The TE/GE Division took actions in 2004 to remind tax
                                   exempt organizations of prohibited political activities
                                   We determined the IRS took several actions during the 2004
                                   election year to remind § 501(c)(3) organizations of the
                                   prohibition against engaging in improper political
                                   intervention, including:
                                      •   Workshops conducted by EO function personnel in
                                          seven states during May and June 2004 that
                                          included a topic on political activities.
                                      •   Presentations that addressed prohibited political
                                          activities at the IRS Nationwide Tax Forums held in
                                          six states during July through September 2004.
                                      •   An April 2004 press release discussing prohibited
                                          political campaign activities for tax exempt
                                          organizations. IRS management indicated they
                                          issued similar election-year advisories in 1992,
                                          1996, and 2000.
                                      •   A letter related to prohibited political activities,
                                          issued in June 2004 to seven national political
                                          parties. These included the Republican, Democratic,
                                          and Libertarian National Committees and the Green
                                          Party of the United States.
                                      •   An October 2004 press release reiterating prohibited
                                          political activities and outlining IRS enforcement

                                                                                          Page 3
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                                  activity taken to address potential prohibited
                                  political activities by tax exempt organizations.
                          The EO function established a “fast track” process to
                          review allegations of potential political intervention by
                          exempt organizations
                          While the EO function receives information items3 of
                          potential political intervention by § 501(c)(3) organizations
                          throughout the year, EO function management anticipated
                          an increase in these types of information items during the
                          2004 election year. To respond to these referrals, EO
                          function management initiated a Political Intervention
                          Project (PIP). The main goal of the PIP was to establish a
                          “fast track” process to respond quickly to referrals of
                          potential political intervention during the 2004 election year
                          and prevent recurring violations by the same organizations.
                          The PIP used the EO function’s existing process for
                          evaluating referrals, except that it allowed for accelerated
                          case initiations in both the classification and examination
                          processes. EO function management intended for the PIP to
                          remain in effect until the completion of the 2004 election
                          year, when it would be reevaluated for use in future years.
                          Based on our review of available documentation, the PIP
                          was initiated in June 2004 at the request of the
                          Commissioner, TE/GE Division. On July 26-30, 2004, an
                          eight-member team met in Dallas, Texas, to develop an
                          expedited process to classify and, if warranted, examine
                          information items alleging political intervention by
                          § 501(c)(3) organizations. The team developed proposed
                          procedures for PIP cases, including:
                              •   Establishing an expedited time period for completing
                                  the classification of potential political intervention
                                  referral cases and directing the cases to an
                                  examination group, if warranted, within
                                  7-10 workdays following the receipt of the referrals
                                  in the EO Classification Unit. (For non-PIP cases,
                                  the EO Classification Unit is required to begin

                          3
                            An information item is a communication received by the EO function
                          from an internal or external source related to potential noncompliance
                          with the tax law by an exempt organization, political organization,
                          taxable entity, or individual.
                                                                                          Page 4
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                                  evaluating information items within 60 days of their
                                  receipt in the Unit; however, there is no time
                                  standard for completing the classification of non-PIP
                                  cases.)
                              •   Requiring the EO Classification Unit’s EO Referral
                                  Committee to determine which cases should be
                                  worked as correspondence examination or field
                                  examination.
                              •   Developing contact letters for informing nonchurch
                                  § 501(c)(3) organizations that they have been
                                  selected for an examination.
                              •   Establishing an expedited review and approval
                                  process for the notices of tax inquiries sent to
                                  churches to inform them the IRS is considering
                                  initiating an examination.
                          During August 2004, the TE/GE Division revised the
                          proposed PIP procedures and contact letters to be sent to
                          organizations selected for expedited examinations. The EO
                          Classification Unit manager sent the proposed procedures to
                          the EO Examinations office area managers for
                          implementation on August 24, 2004; however, the
                          procedures were not formally issued by the Director, EO
                          Examinations. The contact letters and related attachments
                          were approved for issuance as of September 15, 2004.
                          Consequently, the first contact letter sent to an organization
                          as part of the PIP was not issued until September 21, 2004.
                          We determined the EO function has draft guidelines for
                          processing, controlling, and tracking all types of information
                          items received by EO function personnel concerning the
                          activities of tax exempt organizations. EO function
                          personnel stated they follow these guidelines when
                          reviewing information items, but the guidelines have been in
                          “draft” status for an extended period and have not been
                          finalized.
                          According to the draft guidelines, a classifier in the EO
                          Classification Unit is generally responsible for reviewing an
                          information item to determine if the item has examination
                          potential unless the information item is required to be
                          reviewed by the EO Referral Committee. The EO Referral
                          Committee reviews the information items containing
                                                                                 Page 5
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                          evidence or allegations of political activities as well as any
                          type of allegations pertaining to churches.
                          Based on our review of documentation and interviews with
                          TE/GE Division management, the EO Referral Committee
                          was comprised of three members, who were experienced EO
                          function technical employees (e.g., senior examiners,
                          classification specialists, or group managers). The
                          Committee is responsible for considering, in a fair and
                          impartial manner, whether information items referred have
                          examination potential. To make this decision, the
                          Committee evaluates whether an information item meets the
                          “reasonable belief standard” using their experience,
                          judgment, and concern for fairness. For “reasonable belief”
                          to be met, the Committee must determine an information
                          item demonstrates that a violation of the tax laws may have
                          occurred or it appears likely that an examination will lead to
                          the discovery of a violation.
                          The PIP included two sets of information items, all of them
                          alleging political intervention by § 501(c)(3) organizations.
                          The primary set involved information items received by the
                          EO Classification Unit on or after July 30, 2004. These
                          cases were subject to both expedited classification and
                          expedited examination processing. The second set involved
                          information items received before July 30, 2004, that were
                          in the EO Classification Unit’s inventory or information
                          items that involved potential political activity by § 501(c)(3)
                          organizations that were assigned to an examination group
                          but for which no taxpayer contact had been made. These
                          cases were subject to expedited examination processing but
                          not the expedited classification.
                          Based on information provided by EO function
                          management, we determined that, during the period
                          July 30, 2004, through November 22, 2004, the EO Referral
                          Committee reviewed 131 information items alleging
                          potential political activities by tax exempt organizations.
                          The committee determined 10 information items were
                          inaccurately categorized as potential political activities
                          because they did not involve political activities. Of the
                          remaining 121 information items, the EO Referral
                          Committee determined 80 items warranted an examination
                          based on the “reasonable belief” criteria and 41 items did

                                                                                   Page 6
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                          not warrant an examination. Figures 1 and 2 break down
                          these cases by type of organization.
                                 Figure 1: 80 Organizations Selected for Examination




                                                                 34
                                                                            Church
                                                                            NonChurch
                                      46




                                  Source: TE/GE Division data.
                               Figure 2: 41 Organizations Not Selected for Examination

                                                           9




                                                                          Church
                                                                          NonChurch




                                           32



                                  Source: TE/GE Division data.

                          The “fast track” processing was discontinued as of
                          December 1, 2004
                          During the fieldwork phase of our review, EO function
                          management decided to discontinue the “fast track”
                          processing of allegations of potential political intervention
                          by § 501(c)(3) organizations. This decision was based on
                          completion of the 2004 elections and was effective for all
                          information items received after November 30, 2004.4
                          Based on our discussion with EO function management, a
                          classifier will begin evaluating information items received
                          after that date within 60 days (rather than classifying and

                          4
                           EO function management considers the election cycle to end on
                          November 30th of even numbered years.
                                                                                        Page 7
        Review of the Exempt Organizations Function Process for Reviewing Alleged
               Political Campaign Intervention by Tax Exempt Organizations

                                     directing items to an EO Examinations office group within
                                     7-10 workdays of receipt). All cases processed under the
                                     “fast track” procedures prior to December 1, 2004, and
                                     assigned to the EO Examinations office were still required
                                     to be processed under the “fast track” examination
                                     procedures implemented in August 2004. At the end of our
                                     fieldwork, EO function management was evaluating
                                     whether an expedited process will be implemented in future
                                     election years.
                                     EO function management has also designated potential
                                     political intervention referral cases as priority work for the
                                     EO Examinations office in Fiscal Year (FY) 2005,
                                     indicating the TE/GE Division’s continued emphasis in this
                                     area.
                                     We reviewed samples of information items processed under
Allegations of Potential Political
                                     the PIP to determine whether the EO function processed the
Campaign Intervention Were
                                     allegations in accordance with established procedures.
Handled Consistently but Were
                                     Based on our samples, we determined the EO Referral
Not Always Processed Timely
                                     Committee followed a consistent process when reviewing
                                     the information items, regardless of the source of the
                                     allegation or the potential political activity. Specifically, the
                                     sampled information items were reviewed by a three-person
                                     EO Referral Committee of experienced EO function
                                     technical employees, as required. In addition, the EO
                                     Referral Committee’s decision of whether an allegation
                                     warranted an examination was documented in each case file.
                                     EO function management informed us the EO Referral
                                     Committee evaluated the information items based on the
                                     “reasonable belief standard.” Further, we analyzed the EO
                                     Referral Committee’s decisions and did not identify any
                                     cases in which the same criteria were used to select one
                                     information item for examination and to decline a similar
                                     item for examination. Based on the extent of our audit
                                     work, we did not identify any indications that the EO
                                     function inappropriately handled the information items we
                                     reviewed. Furthermore, we did not make any referrals to
                                     the TIGTA Office of Investigations during this audit.
                                     However, EO function management experienced delays in
                                     expediting the classification and examination processes.
                                     Specifically, the EO Classification Unit did not always
                                     ensure information items were classified and directed to a

                                                                                              Page 8
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                          field examination group timely, contact letters were not
                          always issued to taxpayers within the expedited period, and
                          notices of tax inquiry for issuance to churches were not
                          reviewed and approved within the 15 workday expedited
                          period. EO function management’s ability to effectively
                          accelerate case initiations for potential political intervention
                          referrals was affected by a lack of clear guidance,
                          inadequate resources, and the late initiation of the PIP with
                          less than 5 months remaining before the 2004 elections. As
                          a result, EO function management did not send contact
                          letters to organizations until September 21, 2004, 6 weeks
                          before the scheduled elections. Although the IRS’ ability to
                          contact tax exempt organizations as part of the PIP is not
                          limited by the timing of the Presidential election, we believe
                          contacting organizations so close to the election and the late
                          publicity about this project contributed to the allegations of
                          improper motivation on the part of the IRS.
                          To select our samples, we obtained several listings from EO
                          function management of all “fast track” cases processed
                          during the period July 30, 2004, through
                          November 22, 2004. We randomly selected 40 of the
                          80 information items for which the EO Referral Committee
                          determined an examination was warranted, randomly
                          selected 205 of the 41 items for which an examination was
                          not warranted, and selected all 106 of the information items
                          that were classified and determined to be inaccurately
                          categorized as potential political activity, for a total of
                          70 cases.
                          Information items were not always classified timely
                          To determine if the EO Classification Unit function timely
                          processed the information items we selected, we used two
                          different classification timeliness standards, depending on


                          5
                            The EO Referral Committee documented its decision not to select
                          these cases for examination for various reasons, including the alleged
                          activity was not prohibited political activity; the referral did not contain
                          a specific, supported allegation of political activity; and the organization
                          was not a § 501(c)(3) organization.
                          6
                            Our analysis of these cases determined they were similar to those
                          categorized as not selected for examination. Specifically, the cases did
                          not always contain specific, supported allegations of political activity or
                          the organization was not a § 501(c)(3) organization.
                                                                                              Page 9
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                          when the information items were received by the EO
                          Classification Unit. Specifically, information items
                          received in the Unit before July 30, 2004, were considered
                          timely if they were assigned to a classifier within 60 days of
                          receipt by the Unit.7 Information items received on or after
                          July 30, 2004, were considered timely if they were classified
                          and sent by the EO Classification Unit to an examination
                          group, if warranted, within 10 workdays of receipt by the
                          Unit. As shown in Figure 3, the EO function did not always
                          classify information items timely.
                                        Figure 3: Timeliness of Classification Process

                               EO            Number      Number      Percentage     Range of
                          Classification     of Cases      Not          Not        Untimeliness
                          Unit Receipt                  Processed    Processed       (days)
                              Date                       Timely        Timely

                          Before                37           4           10.8           1-77
                          07/30/04                                                  (avg 24 days
                                                                                        late)

                          On or After           33          25           75.8           1-40
                          07/30/04                                                    (avg 19
                                                                                     workdays
                                                                                        late)

                          Totals                70          29           41.4
                          Source: TIGTA analysis of selected information items.

                          We analyzed the 25 untimely processed information items
                          received on or after July 30, 2004, and identified 2 main
                          causes of untimeliness: delay in classifying the information
                          items by the EO Referral Committee (it took an average of
                          15 workdays for the EO Referral Committee to classify the
                          items after receipt in the Unit) or delay by the EO
                          Classification Unit in sending the cases to an examination
                          group after a decision was made by the EO Referral
                          Committee (18 of the 25 items were selected for
                          examination but were not sent to an examination group until
                          an average of 19 workdays after review by the EO Referral
                          Committee).



                          7
                           We considered the evaluation of information items to begin when they
                          were assigned to a classifier.
                                                                                         Page 10
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                          Although the PIP team requested additional resources to
                          meet the expedited time standards, the EO Classification
                          Unit may not have had sufficient resources to meet the
                          PIP time standards. The Unit was allocated only an
                          additional .5 Full-Time Equivalent8 to assist in meeting the
                          expedited PIP time periods during the project. EO function
                          management stated EO Classification Unit staffing
                          shortages caused delays in the case-building process
                          (conducting research of both internal and external
                          databases) when information items were received, as well as
                          delays in updating internal databases and preparing the case
                          files before they were sent to EO Examinations office
                          personnel after the EO Referral Committee determined an
                          examination was warranted.
                          As shown in Figure 3, classifiers timely began the
                          evaluations (i.e., within 60 days of receipt) for the majority
                          of cases in our samples received in the EO Classification
                          Unit before July 30, 2004. However, the information items
                          were not classified by the EO Referral Committee until an
                          average of 111 days (almost 4 months) after receipt by the
                          EO Classification Unit. In addition, when examinations
                          were warranted, the Unit did not send the information items
                          to an examination group until an average of 126 days (an
                          additional 4 months) after the items were classified by the
                          EO Referral Committee.
                          With the decision to discontinue the expedited processing of
                          potential political intervention referrals and the lack of a
                          time standard for classifying cases, future referrals may
                          once again be delayed in classification. To ensure all
                          information items are evaluated timely, the EO function
                          should establish, for both election years and nonelection
                          years, clear time standards for when these information items
                          should be classified and forwarded to an examination group,
                          if warranted.




                          8
                            A Full-Time Equivalent (FTE) is a measure of labor hours. One FTE
                          is equal to 8 hours multiplied by the number of compensable days in a
                          particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff
                          hours. For FY 2005, 1 FTE is equal to 2,088 hours.
                                                                                       Page 11
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                          Examination case processing was not always performed
                          on an expedited basis for PIP cases
                          Our analysis of the examination process for the 40 randomly
                          selected information items for which the EO Referral
                          Committee determined an examination was warranted was
                          limited to the initial processing by the examination group as
                          of December 21, 2004. This included the timeliness of case
                          assignment to an agent, issuance of contact letters to
                          nonchurch organizations, and processing of inquiry letters
                          required for church cases. However, TE/GE Division
                          personnel did not always ensure the necessary actions were
                          completed timely.
                          Specifically, we determined EO Examinations office
                          management did not always ensure information items
                          involving potential political intervention activity were
                          assigned to an agent within the expedited period. We
                          determined 21 (53 percent) of the 40 cases were not
                          assigned to an agent within 1 day of receipt in the group, as
                          required. Delays in the case assignment ranged from 1 to
                          30 workdays.
                          For nonchurch PIP cases selected for correspondence
                          examination, a letter should be issued to an organization
                          within 5 workdays of receipt by the agent. For nonchurch
                          PIP cases selected for field examination, an initial letter
                          should be sent to the organization within 2 workdays of
                          receipt by an agent, with a second letter issued no later than
                          10 workdays after the initial letter. Twenty-five of the
                          40 information items analyzed related to nonchurch
                          organizations. We determined 10 (40 percent) of the
                          25 cases had at least 1 instance of a contact letter issued to a
                          taxpayer beyond the established time period. This included
                          initial contact letters for both correspondence and field
                          examinations, as well as second contact letters for field
                          examinations. Timeliness delays ranged from 2 to
                          23 workdays.
                          For church cases, the “fast track” PIP procedures require
                          that an inquiry letter be drafted, reviewed by the Office of
                          Division Counsel/Associate Chief Counsel (Tax Exempt
                          and Government Entities), and sent for quality review
                          within 15 workdays following request for assignment of an
                          Office of Division Counsel/Associate Chief Counsel
                                                                                  Page 12
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                          attorney. However, we determined that 6 of the 15 church
                          cases were not sent for quality review within the
                          15 workday standard. Timeliness delays ranged from 3 to
                          41 workdays.
                          Based on our discussions with EO function management
                          and review of recent PIP reports, EO function management
                          indicated that the expedited periods for classification and
                          examination were unrealistic. According to EO function
                          management’s analysis of PIP cases in process as of
                          January 13, 2005, contact letters were not issued timely in
                          40 percent of the correspondence audits and 78 percent of
                          the field audits. In addition, EO function management
                          determined that inquiry letters were not processed timely in
                          78 percent of the church cases.
                          The information items we analyzed contained allegations
                          related to various political views and were received from
                          both internal and external sources
                          Based on our analysis of the information items randomly
                          selected in our samples, we determined tax exempt
                          organizations were allegedly performing activities that were
                          supporting several political parties, as shown in
                          Figures 4 and 5.
                             Figure 4: Potential Political Activity by the 40 Organizations
                                              Selected for Examination

                                  9
                                                                Pro-Republican


                                                                Pro-Democratic
                                                         18
                              1
                                                                Pro-Green Party


                                                                Unable to
                                                                Determine
                                  12



                          Source: TIGTA analysis of 40 randomly selected information items.




                                                                                      Page 13
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                             Figure 5: Potential Political Activity by the 20 Organizations
                                            Not Selected for Examination



                                                         8        Pro-Republican*

                             10                                   Pro-Democratic*


                                                                  Unable to
                                                                  Determine


                                                 4


                          *Two information items alleged political activity that supported both the
                          Republican and Democratic parties and was detrimental to other
                          political parties.
                          Source: TIGTA analysis of 20 randomly selected information items.

                          The “Unable to Determine” information items included
                          allegations that we could not directly attribute to any
                          political party, such as those related to local election issues
                          or candidates for local offices.
                          We also determined the allegations for the items in our
                          random samples were referred by both internal and external
                          sources. Specifically, several information items were
                          received from internal IRS sources, such as EO
                          Examinations office and IRS Communications and Liaison
                          office personnel. Other sources of information items were
                          individual taxpayers, other Federal Government agencies,
                          political candidates, and the Congress.

                          Recommendations

                          The Director, EO, should:
                          1. Formalize the draft guidelines that detail how allegations
                             of potential noncompliance with the tax law by tax
                             exempt organizations should be classified.
                          Management’s Response: TE/GE Division management has
                          drafted and will make effective procedures that specify how
                          allegations of potential noncompliance by tax exempt
                          organizations should be classified.


                                                                                         Page 14
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                          2. Ensure time standards for accelerated case initiation
                             (both classification and examination) are realistic for
                             future election years based on available resources and
                             priorities.
                          Management’s Response: TE/GE Division management is
                          drafting and will issue revised political intervention
                          procedures for future election years that contain realistic
                          time periods. As additional data from the 2004 election
                          cycle is collected, these procedures may be revised, if
                          appropriate, for the 2006 election cycle.
                          3. Establish time standards for when potential political
                             intervention allegations received in nonelection years
                             should be evaluated for examination potential and sent
                             to the examination groups, rather than just assigned to
                             an examiner as currently required.
                          Management’s Response: TE/GE Division management has
                          drafted and will implement procedures that set time periods
                          within which information items alleging potential political
                          intervention received in nonelection years are assigned to a
                          classifier and either sent to an examination group or
                          determined that an examination is not warranted.
                          4. Ensure any future expedited review process is initiated
                             early enough in an election year to ensure classification
                             and examination actions are completed timely and
                             consistently.
                          Management’s Response: TE/GE Division management has
                          drafted and the Director, EO Examinations, is considering
                          procedures for future election years that will ensure the
                          process is initiated early enough to allow classification and
                          examination actions to be completed timely and
                          consistently.
                          In addition, the Commissioner, TE/GE Division, should:
                          5. Issue a press release in future election years if
                             allegations of potential noncompliance with the tax laws
                             will be processed on an expedited basis, to increase
                             public awareness of the expedited process.
                          Management’s Response: The Commissioner, TE/GE
                          Division, has requested the Director, Communications and
                          Liaison, TE/GE Division, to prepare a press release in future
                                                                               Page 15
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                          election years advising the exempt organizations community
                          that allegations of potential noncompliance with the tax
                          laws relating to political activity will be processed on an
                          expedited basis.




                                                                             Page 16
           Review of the Exempt Organizations Function Process for Reviewing Alleged
                  Political Campaign Intervention by Tax Exempt Organizations

                                                                                          Appendix I


                             Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the Tax Exempt and Government Entities
(TE/GE) Division’s recently established process for reviewing information alleging political
campaign intervention by Internal Revenue Code (I.R.C.) § 501(c)(3)1 organizations and for
initiating any associated examinations of these organizations. Specifically, we determined the
process established by TE/GE Division management to review referrals of potential political
campaign intervention and assessed whether referrals were processed in accordance with
established procedures. To accomplish the objective, we:
I.         Reviewed actions taken by TE/GE Division management during the 2004 Presidential
           election year to educate I.R.C. § 501(c)(3) organizations on their responsibilities related
           to political activities.
           A. Interviewed Exempt Organizations (EO) function management to determine any
              education and outreach efforts taken during the 2004 election year related to political
              activity.
           B. Obtained any press releases, letters, or other correspondence/documentation issued by
              the TE/GE Division during this period.
II.        Determined the process established by TE/GE Division management during the
           2004 election year to review referrals of political campaign intervention and to assess
           which organizations merit examination.
           A. Interviewed TE/GE Division management to determine the process established during
              this period to review allegations of political campaign intervention.
           B. Obtained any procedures or documentation related to the establishment of the
              process.
           C. Obtained any procedures or documentation established by TE/GE Division
              management detailing the process that should be followed when receiving and
              reviewing any allegations of political campaign intervention by I.R.C. § 501(c)(3)
              organizations and in determining whether to initiate an examination.
III.       Assessed whether the referrals received by TE/GE Division management were processed
           in accordance with established procedures.
           A. Obtained a listing of all internal and external referrals received by TE/GE Division
              management during the 2004 election year alleging political campaign intervention
              by I.R.C. § 501(c)(3) organizations.

1
    I.R.C. § 501(c)(3) (2004).
                                                                                                Page 17
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

B. Selected three samples of the allegations received to evaluate the process followed by
   the TE/GE Division when determining whether an examination was warranted.
   1. Selected a random sample of the allegations received for which the TE/GE
      Division determined an examination was not warranted based on its review. We
      randomly selected 20 of the 41 allegations processed by the EO function during
      the period July 30, 2004, through November 22, 2004. We used a random sample
      due to time constraints and because we did not plan to project our results.
   2. Selected a random sample of the allegations received for which the TE/GE
      Division initiated an examination based on its review. We randomly selected
      40 of the 80 allegations processed by the EO function during the period
      July 30, 2004, through November 22, 2004. We used a random sample due to
      time constraints and because we did not plan to project our results.
   3. Reviewed all 10 allegations received by the EO function during the period
      July 30, 2004, through November 22, 2004, which the TE/GE Division
      determined were inaccurately categorized as potential political intervention
      activities.
C. Obtained and reviewed any case files for the sampled referrals to determine whether
   established procedures were followed for reviewing the referrals and for initiating any
   examinations.




                                                                                  Page 18
      Review of the Exempt Organizations Function Process for Reviewing Alleged
             Political Campaign Intervention by Tax Exempt Organizations

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Jeffrey M. Jones, Audit Manager
Theresa Berube, Lead Auditor
Margaret Anketell, Senior Auditor
Deadra English, Senior Auditor
Donald Martineau, Auditor




                                                                                      Page 19
      Review of the Exempt Organizations Function Process for Reviewing Alleged
             Political Campaign Intervention by Tax Exempt Organizations

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner - Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 20
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations

                                                                 Appendix IV


             Management’s Response to the Draft Report




                                                                       Page 21
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations




                                                                       Page 22
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations




                                                                       Page 23
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations




                                                                       Page 24
Review of the Exempt Organizations Function Process for Reviewing Alleged
       Political Campaign Intervention by Tax Exempt Organizations




                                                                       Page 25
